MASTERCARD® First Progress
CARDHOLDER AGREEMENT
NEW YORK RESIDENTS:
RETAIL INSTALMENT CREDIT AGREEMENT
This agreement (“Agreement” or “Cardholder Agreement”),
as modified from time to time, will govern the use of
your First Progress MasterCard Account (“Account”) by
any person designated on the application, acceptance
certificate or other written document (including an electronic
record) that you signed or otherwise submitted for this
Account (“Application”), which is part of this Agreement
and incorporated herein by reference. The accompanying
Summary of Terms is hereby incorporated into and
made a part of this Agreement. Before you use any credit
card (“Card”) that we issue to you, please thoroughly read
this Agreement, including the accompanying Summary
of Terms and the following additional documents, which
are part of this Agreement and incorporated herein by
reference: (i) the card mailer provided with your Card(s)
when we opened your Account (“Card Mailer”), (ii) your
most recent cardholder statement (existing Accounts
only), and (iii) any notification of changes to your Account
(existing Accounts only). If you do not wish to be bound
by this Agreement or to activate the Account, do not use
the Card and cut the Card in half and return it to us at First
Progress Card, P.O. Box 9053, Johnson City, TN 376159053. Any acceptance, signing or use of the Card or
Account will constitute your consent and agreement to all
terms, conditions and provisions set forth below (in New
York, you must sign a sales slip or memorandum). If you
elect to close your Account and notify us in writing before
you make any charges for Purchases or Cash Advances
to your Account or pay any Fees, including the Annual
Fee, you will not be responsible for any Fees, including
the Annual Fee, or any Interest. In such a case, any Fees
or Interest charged will be credited back to your Account.
New York Residents: You will not be required to pay any
annual fee until after the date that you first sign a sales
slip or memorandum.
Please save this Agreement for future reference. It
contains important state and federal disclosures, including
Regulation Z disclosures and disclosures regarding your
rights in case of errors or inquiries about your bill.

In this Agreement, “we”, “us”, and “our” refer to Synovus
Bank, 1125 1st Avenue, Columbus GA 31901, the issuer
of the Card, and to its successors and assigns. The words
“you” and “your” refer to the person who applied for the
Account, any co-signer, co-obligor or guarantor, and each
person to whom we issue a Card at your request or who
uses a Card with your consent (an “Authorized User”).
The words “Business Day” mean any day (excluding
Saturday and Sunday or legal holiday) on which banking
institutions are open for general business in Georgia.
“Purchases” mean using your Card or Account to pay
for goods or services. “Cash Advance” means using
your Card or Account to get cash from ATMs or banks
that accept the card or by using cash advance checks
(“Convenience Checks”) we may provide to you. “Interest”
means the interest charges we impose on a Purchase or
Cash Advance or on Fees or previously accrued interest
charges. “Fees” means other amounts added to your
Account from time to time, including Cash Advance Fees,
Foreign Transaction Fees, Late Fees, Annual Fees,
Returned Payment Fees, and other fees we charge as
specified in this Agreement. “Finance Charge” includes
both Interest and certain Fees.
This Agreement becomes effective on the date (the
“Effective Date”) we establish your Account and your
Deposit Account following the last to occur of (i) our receipt
and approval of your Application, and (ii) our receipt and
final collection of good funds comprising your payment
of your initial Deposit (in New York, on the date that you
first sign a sales slip or memorandum after receipt of the
Agreement, if not an existing customer).
To avoid unauthorized use of your Card, please sign the
back of your Card immediately.
In the “Security Interest” section that follows next,
“Cardholder Agreement” refers to this Agreement,
including the Security Interest section.

Security Interest. As a condition to approving an Account for you, you must maintain a deposit with us of not
less than $200 (the “Deposit”). Your Deposit will be held in a comingled non-interest bearing deposit account with
other customers’ deposits (“Deposit Account”). The Deposit Account is insured by the Federal Deposit Insurance
Corporation to the extent permitted by law. You grant us a security interest in and pledge and assign to us that portion
of the Deposit Account represented by your Deposit, including any funds deposited following the Effective Date of
your Cardholder Agreement, to secure payment of all of your existing and future obligations under your Cardholder
Agreement and on your Account (the “Security Interest”). Except for the Security Interest you are providing us, you
shall cause the Deposit to remain unencumbered (i.e. not subject to any lien, judgment, attachment or execution).
You may add funds to the Deposit Account only with our approval. If we approve such addition of funds, they must be
mailed to us using a paper check at the address we specify at the time of approval. You are not permitted to initiate
electronic transfers to or from the Deposit Account. You may not withdraw or transfer funds from the Deposit Account
other than by our refund to you of any amounts remaining of your Deposit after your Account is closed and each of
the following have occurred: (i) all amounts owed to us on your Account or otherwise owed under your Cardholder
Agreement are paid in full, (ii) we receive from you all unexpired Cards, cut in half, and (iii) a period of up to 10 weeks

F03-L175-0 -1119

Dear Cardmember:

1

has elapsed since your Account was closed and your unexpired Cards returned to us, during which we may retain
any amounts remaining of your Deposit to allow for any outstanding transactions to be posted to your Account. If
you or we close your Account for any reason, or you are in Default (as provided in your Cardholder Agreement), you
authorize us, to the extent not prohibited by law, to apply all or any part of your funds in the Deposit Account towards
the outstanding balance of your Account and any other amounts owed under your Cardholder Agreement without
giving you prior notice. If we choose not to, or otherwise fail to apply your funds in the Deposit Account towards
amounts owed on the Account or otherwise owed under your Cardholder Agreement, you agree that: (a) we do not
thereby waive any right we have to do so at any later time, and to the extent not prohibited by law we may so apply
such funds at any time, in our sole discretion; and (b) you are not thereby excused from the performance of any
obligation owing with respect to the Account or otherwise under your Cardholder Agreement. However, if the Account
is closed by you or by us for any reason, and we fail to apply your funds in the Deposit Account towards amounts
owed on the Account or otherwise owed under your Cardholder Agreement, you may request in writing that we apply
your funds in the Deposit Account towards such amounts. We will honor any such written request within 10 days after
we receive it at P.O. Box 9053, Johnson City, TN 37615-9053. If the amount of your funds in the Deposit Account
exceeds the amount you owe us, then, we will refund to you any amounts of your Deposit remaining in the Deposit
Account after all obligations owed to us are satisfied subject to the time period restrictions described above. Except
for your Deposit in the Deposit Account, we do not have a security interest in any other of your property in connection
with your Account. Funds in the Deposit Account are not held in trust for the Cardholder.
1. Using Your Card. You may use your Card to make
Purchases or obtain Cash Advances if your Account is in
good standing and you have Available Credit, as defined
in Section 2 below. If you give your Account number
to make a Purchase or obtain a Cash Advance without
presenting your Card (such as for a mail order, telephone,
or Internet purchase), the legal effect will be the same as
if the Card itself was used by you. If we, at our option,
give you a Personal Identification Number (PIN), you may
also use your Card and a PIN to obtain Cash Advances
at any automated teller machine (“ATM”) that bears the
MasterCard logo. We may impose restrictions on your
Account at any time, including restrictions on (a) the
number of transactions allowed per day; (b) the dollar
amount of transactions approved; (c) your ability to obtain
Cash Advances; and (d) your ability to use your Card at
an ATM.
You agree to use your Account only for personal, family
or household purposes. Your Account may be used
only for valid and lawful purposes. If you use, or allow
someone else to use, your Card and Account for any
other purpose, you will be responsible for such use
and may be required to reimburse us for all amounts or
expenses we pay as a result of such use. You may not
use the Card or your Account for any illegal transaction
or any gambling transaction. We will decline identifiable
gambling transactions.
You should not keep your PIN with your Card. If you
believe that anyone has gained unauthorized access to
your PIN, you should advise us immediately, following the
procedures under the heading “Lost or Stolen Card.”
2. Credit Limit and Available Credit. The maximum
permitted outstanding balance for your Account (including
principal, accrued Interest and fees, whether billed or
unbilled) is your credit limit (“Credit Limit”). Your credit
available (“Available Credit”) is the Credit Limit less your
outstanding balance and any amounts we at our sole
discretion may add to keep your outstanding balance
below your Credit Limit, such as Interest Charges and

Fees incurred but not yet billed. The initial Credit Limit
for your Account will be equal to the amount of the
Deposit that you make with us, which must be at least
$200 (see “Security Interest” above). However, if you
choose to deposit more than $200, your initial deposit and
corresponding Credit Limit may not exceed $2,000 and
must be at least the amount specified in the solicitation
or application. Your initially available credit will be
equal to your initial Credit Limit, less the Annual Fee in
the amount specified in the accompanying Summary
of Terms, imposed after your Account is opened. For
example, if your initial Credit Limit is $200 and if your
Annual Fee specified in the accompanying Summary
of Terms is $49, your initially available credit would be
$151. (The renewal Annual Fee, when imposed annually
thereafter, would also reduce your then available credit
by $49.) Or, for example, if your initial Credit Limit is $200
and if your Annual Fee specified in the accompanying
Summary of Terms is $39, your initially available credit
would be $161. (The renewal Annual Fee, when
imposed annually thereafter, would also reduce your then
available credit by $39.) Or, for example, if your initial
Credit Limit is $200 and if your Annual Fee specified in
the accompanying Summary of Terms is $29, your initially
available credit would be $171. (The renewal Annual Fee,
when imposed annually thereafter, would also reduce
your then available credit by $29.) Your Credit Limit may
be increased only with our approval. For cardholders
under the age of 21 with a co-signer, the co-signer
must sign a written statement approving the increase
and taking responsibility for repayment of the increase.
If we approve your request to do so, your Credit Limit
and Available Credit may be increased by your making
an additional deposit with good funds to your Account,
by mailing them to us at the address we specify at the
time of approval. We may choose to increase your Credit
Limit without requiring you to add to the Deposit Account.
Any increases in your Credit Limit are subject to credit
approval. The maximum Credit Limit you can obtain over
time is $5,000. Payments you make on your Account will
not increase your Available Credit until we are assured
that the payment has not been dishonored. This payment

2

hold may take up to ten (10) days (see “Credit Availability/
Payment Hold” below at Section 5).
You agree not to make any Purchase or obtain any Cash
Advance that would cause the unpaid principal balance
of your Account to exceed your Available Credit. We are
not required to allow you to make Purchases or Cash
Advances that, along with billed and unbilled Finance
Charges and Fees, would cause your outstanding
Account balance to exceed your Credit Limit, but, if we
do, you will be liable for any such amount. If you exceed
your Credit Limit, we may, at our option, (i) charge you for
all Purchases and Cash Advances without giving up any
of our rights (ii) require that you immediately pay to us any
amount in excess of your Credit Limit, or (iii) suspend or
terminate your use of the Card or Account. If you request
that your Credit Limit be increased either permanently or
temporarily, we have no obligation to do so; however, we
may make such an increase if we choose without giving
up or waiving any of our rights, and without having to
honor other uses which would cause your Credit Limit to
be exceeded. We may permanently increase or decrease
your Credit Limit as we deem appropriate with notice if
required by applicable law.
Changes in your Credit Limit do not affect your obligation
to pay all amounts that you owe under this Agreement.
3. Billing Statement, Initial Annual Fee and Credit
Availability. The initial Annual Fee in the amount specified
in the accompanying Summary of Terms will be billed to
your Account following Card issuance and will appear
on your monthly billing statement (“Billing Statement”).
Your current Credit Limit and Available Credit will appear
on each Billing Statement. Payments you make on your
Account will not increase your Available Credit until we
are assured that the payment has not been dishonored.
This payment hold may take up to ten (10) days (see
“Credit Availability/Payment Hold” below at Section 5).
4. Payments. You promise to pay us for all Purchases
or Cash Advances (including amounts advanced to any
Authorized User) under this Agreement, plus all Interest,
Minimum Interest Charges and Fees assessed on those
amounts, and all other costs that are applied to your
Account. You may at any time pay more than the minimum
payment due or pay the total unpaid balance in full without
incurring any additional charge for prepayment. You must
pay at least the minimum payment due each month
(“Minimum Payment Due”) as shown on your Billing
Statement so that we receive it at our processing facility
by 5:00 P.M. Eastern Time on your Payment Due Date.
The Payment Due Date will be at least twenty-five (25)
days after the Billing Cycle Closing Date and will be the
same date of each calendar month. All payments must
be made in U.S. dollars, and all checks or other items
tendered in payment must be drawn on a U.S. financial
institution. Payments must be made in accordance with
any other instructions shown on the Billing Statement.
Payments by mail must be by check or money order
and accompanied by the remittance coupon from your

Billing Statement. Payments received in proper form at
our processing facility by 5 PM Eastern Time on any day
will be credited to your Account as of that day. Payments
received in proper form at our processing facility after
5 PM Eastern Time on any day will be credited to your
Account as of the next day. Payments received by any
other method may be subject to a delay in crediting of
up to 5 days after the date of receipt. Payments are not
accepted at Synovus Bank locations. Delayed crediting
of payments may cause you to incur additional charges,
including, but not limited to, a Late Fee and additional
Interest charges. The Minimum Payment Due will equal
the greater of $40 or 5% of your outstanding balance, plus
any past due amount and any balance in excess of your
Credit Limit.
Payments will be applied from time to time in any manner
that we determine to be in accordance with applicable
law, but will ordinarily be applied to Interest, Fees, and
other charges before principal balances. Payments in
excess of the Minimum Payment Due will be applied,
in accordance with applicable law, to your highest rate
balances. Payments you make on your Account will not
increase your Available Credit until we are assured that
the payment has not been dishonored. This payment hold
may take up to ten (10) days (see “Credit Availability/
Payment Hold” below at Section 5).
Paying by Check. If you pay by check, you authorize
us to use information on your check to make a onetime electronic debit from your account at the financial
institution indicated on your check. This electronic debit
will be for the amount of your check; no additional amount
will be added to the electronic debit. We will process your
payment using the Automated Clearing House (ACH)
system. When we use information from your check to
make an electronic fund transfer, funds may be withdrawn
from your account as soon as the same day we receive
your payment. Electronically processed checks (and
checks presented electronically) are not returned to you
by your bank, but a copy can be retrieved by contacting
your bank. We will retain an image of your electronically
processed check as required by law. Please contact the
Customer Service Department at the telephone number
on your Billing Statement if you have questions about
electronic check conversion or if you prefer not to have
your check information used in this way.
Stopping Convenience Check Payments: You agree to
notify us in writing sufficiently in advance to request that
we stop payment on a Convenience Check. We may, but
are not required to, accept an oral stop payment request.
Although we may attempt to stop payment, we are under
no liability for failure to stop payment.
5. Credit Availability/Payment Hold. For all payments,
depending on the payment amount and/or how long your
Account has been opened, and if you have previously
made a payment that was not honored for any reason,
such payment will not increase your Available Credit until
we are assured that the payment has not been dishonored.
3

This payment hold may take up to ten (10) days. If you
use a payment service provided by a third party to deliver
your payment to us, that third party may charge you a fee
for such service; such third party fees are not paid to us
and we will not bill these fees to your Account; however,
you may authorize those charges if you wish.		
6. Irregular Payments and Delay in Enforcement,
Waivers and Releases. We can accept late payments,
partial payments, checks, and money orders marked “paid
in full” or language having the same effect without losing
any of our rights under this Agreement. We are under no
obligation to hold a postdated check and we reserve the
right to process every item presented as if dated the same
date received by us unless you give us adequate notice
and a reasonable opportunity to act on it. Except where
such notice and opportunity is given, you may not hold
us liable for depositing any postdated check. You agree
not to send us partial payments marked “paid in full,”
“without recourse,” or similar language. If you send such a
payment, we may accept it without losing any of our rights
under this Agreement. All written communications
concerning disputed amounts, including a check or
other payment instrument that (a) indicates that the
payment constitutes “payment in full” or is otherwise
tendered as full satisfaction of a disputed amount, or
(b) is tendered with other conditions or limitations,
must be marked or delivered to us at the address for
account inquiries shown on your Billing Statement,
not the Payment Address.
7. Billing Statements. We will promptly send a Billing
Statement at the end of each monthly Billing Cycle if your
Account has a debit or credit balance greater than $1.00
or if a Finance Charge has been imposed. The Billing
Statement will show the Previous Balance, Purchases
and Cash Advances posted during the Billing Cycle,
any Interest Charges, Other Charges and fees, and all
payments, debits, and credits to your Account through the
Billing Cycle Closing Date. It will also show, among other
things, your New Balance, the Minimum Payment Due,
and the Payment Due Date (which will be at least twentyfive (25) days after the Billing Cycle Closing Date).
8. Lost or Stolen Card. If you notice the loss or theft
of your Card or a possible unauthorized use of your
Card, write to us at First Progress Card, PO Box 9053,
Johnson City, TN 37615-9053 or call us toll free at 1-866706-5543. You will not be liable for any unauthorized use
of your Card that occurs after you notify us. In any case,
your liability will not exceed $50.00. In New York, you will
not be liable for unauthorized use of the Card that occurs
prior to the Effective Date.
9. Paying Interest. Interest accrues on Purchases
beginning on the date a Purchase is posted to your
Account. However, interest will not be imposed on
Purchases we post to your Account in any Billing Cycle
in which the Previous Balance shown on your Billing
Statement for that Billing Cycle is zero or paid in full by
the Payment Due Date during that Billing Cycle, if you

pay your New Balance in full by the Payment Due Date
shown on that Billing Statement. Interest accrues on
Cash Advances beginning on the transaction date. There
is no time within which you can pay the balance of a Cash
Advance to avoid Interest. How to Avoid Paying Interest
on Purchases: Your Payment Due Date is at least 25 days
after the close of each Billing Cycle. We will not charge
you any Interest on Purchases if you pay your entire New
Balance by the Payment Due Date each month.
How We Compute the Annual Percentage Rate (APR)
and Daily Periodic Rate. The APR for Purchases and
the APR for Cash Advances are calculated by adding
the Margins disclosed in the accompanying Summary
of Terms to the Prime Rate reported in The Wall Street
Journal on the first Tuesday of every month, or if The Wall
Street Journal is not published on that day, on the next
publication day. APRs are adjusted monthly, effective
as of the first day of your first Billing Cycle ending on or
after the date of the Prime Rate change. APRs will vary
with the market based on variations in the Prime Rate.
The applicable Daily Periodic Rate will be equal to 1/365
of the applicable APR. The accompanying Summary of
Terms shows the Daily Periodic Rates and corresponding
APRs determined under the above formula, as of the date
specified in the Summary of Terms. If the Prime Rate
increases the Daily Periodic Rate and corresponding
Annual Percentage Rate under the above formula may
increase. As a result, the Interest Charges, the Minimum
Payment Due and the number of payments may also
increase.
Minimum Interest Charge. If your Account is subject
to an Interest charge during any Billing Cycle,
the Minimum Interest Charge will be $1.50, if the
calculated Interest charge would otherwise be less.
How We Compute the Balance Subject to Interest
Rate.
Interest for a Billing Cycle is calculated separately for
Purchase and Cash Advance balances. Convenience
Checks are included in the Cash Advance balance. For
each balance type we use the daily balance method
(including current transactions). For each balance type,
we figure the interest charge on your account by applying
the applicable Daily Periodic Rate to the applicable “daily
balance” of your account for each day in the Billing Cycle.
To get the “daily balance” for Purchases, we take the
beginning Purchases balance of your account each day
(including any unpaid Interest, Minimum Interest Charges
and Fees), add any new Purchases and Fees, and any
Interest accrued on the previous day’s daily balance, and
subtract the applicable portion of any new payments or
credits. To get the “daily balance” for Cash Advances,
we take the beginning Cash Advances balance of your
account each day (including any unpaid Interest and
Fees), add any new Cash Advances and Fees, and any
Interest accrued on the previous day’s daily balance,
and subtract the applicable portion of any new payments
or credits. (All Fees are included in the Purchases
daily balance except Cash Advance Fees and Foreign
4

Transaction Fees related to Cash Advances, which are
included in the Cash Advances daily balance.) The total
Interest charges for each balance type for each day
during that Billing Cycle. Your Billing Statement will show
a Balance Subject to Interest Rate for each balance type.
That Balance Subject to Interest Rate is the average of
the daily balances during the Billing Cycle, which is their
sum divided by the number of days in the Billing Cycle.
The method we use to figure the daily balance and Interest
results in daily compounding of interest.
10. Fees
Cash Advance Fee. In addition to the periodic Interest on
Cash Advances, a Cash Advance Fee as specified in the
accompanying Summary of Terms will be posted to your
Account, and such fee is included in your daily balance
for Cash Advances for the purpose of calculating Interest.
The Cash Advance Fee is a Finance Charge.
Foreign Transaction Fee. We will assess a Foreign
Transaction Fee as specified in the accompanying
Summary of Terms for any transaction made in a foreign
currency that is converted to U.S. dollars by MasterCard
International. This Foreign Transaction Fee will be applied
to all transactions posted to your Account in a foreign
currency, including all Purchases, Cash Advances, and
returns and adjustments (e.g., for returned merchandise)
and for the purpose of calculating Interest is included in
the daily balance for the same daily balance type
(e.g., Purchases or Cash Advances) as the transaction
to which the Foreign Transaction Fee relates. A portion
of each Foreign Transaction Fee is passed on by us to
MasterCard International in connection with each foreign
transaction. The Foreign Transaction Fee is a Finance
Charge.
Other Fees. The following fees will be charged to your
Account as a Purchase for the purpose of calculating
Interest:
Annual Fee: Your Account will be assessed an Annual
Fee as specified in the accompanying Summary of Terms
after your Account is opened and annually thereafter.
The Annual Fee is non-refundable except as provided in
Section 13 below. Your payment of the Annual Fee does
not affect our right to close your Account or to limit your
ability to make transactions on your Account.
Late Payment Fee. If we do not receive at least the
Minimum Payment Due by the Payment Due Date shown
on your Billing Statement, you will be charged a Late
Payment Fee of up to $28.00 [$29.00 effective January 1,
2020] (up to $39.00 [$40.00 effective January 1, 2020] if
you have been subject to a Late Payment Fee during any
of the preceding six Billing Cycles). We may also refer to
this Fee as the “late fee” or “late charge.”
Returned Payment Fee. If your payment by check or
other payment instrument (including an electronic funds

transfer or a telephone authorized draft) is not honored
for any reason or cannot be processed, we will charge a
Returned Payment Fee of up to $28.00 [$29.00 effective
January 1, 2020].
Billing Statement Copy Fee. If you request an additional
copy of a Billing Statement that is more than six (6)
months old, we will charge you a Billing Statement Copy
Fee of $1.00 for each Billing Statement requested to the
extent not prohibited by law.
Expedited Telephone Payment Fee. We may make
available at our customer service number an expedited
telephone payment service involving assistance by one of
our associates or agents. We will charge a $10.00
Expedited Telephone Payment Fee for each expedited
payment authorized by telephone in this way.
11. Default/Collection Costs. Subject to the limitations of
applicable law, your Account will be in default (“Default”),
and we may demand immediate payment of the entire
amount you owe us without giving you prior notice, if:
(a) your Minimum Payment Due is not received by the
Payment Due Date; (b) you make Purchases or obtain Cash
Advances in excess of your Credit Limit; (c) you become
insolvent or are a party to a bankruptcy proceeding; (d)
you die; (e) you misuse the Account or Card or violate
any term of this Agreement; (f) any judgment or lien is
fled against you or the Deposit; (g) to the extent permitted
by law, we reasonably believe that your ability to repay
your obligations to us has been materially impaired; (h)
you fail to honor any of the terms or your promises made
in this Agreement, or (i) you provide us with any false or
misleading information or signatures on the Application
or in any other communication with us or on any other
account with us. We shall also have the right to all
remedies provided by law including, without limitation,
closing or refusing to renew your Account and demanding
return of your Card(s). Our failure to declare your Account
in default does not excuse you from performing all of your
obligations under this Agreement, and such failure shall
not constitute a waiver of our rights to declare the Account
in default and terminate your ability to use the Account
and the Card at a later time or upon the occurrence of the
same or a different event of default.
If we refer your Account for collection to an attorney who
is not our regularly salaried employee, you agree to pay
the reasonable fees of such attorney and, whether or
not an attorney is retained, all court and other collection
costs, including any amounts actually incurred by
us in recovering your Card(s), to the greatest extent not
prohibited by law.
12. Refusals to Honor Card. We are not responsible if
any bank, merchant or other person refuses to honor your
Card. Except as otherwise required by law or regulations,
we will not be responsible for merchandise or services
purchased through use of your Card.
13. Account Closing Prior to Use; Annual Fee Refund.
5

If you elect to close your Account and notify us in writing
before you make any charges for Purchases or Cash
Advances to your Account or pay any Fees, including the
Annual Fee, you will not be responsible for any Fees,
including the Annual Fee, or any Interest. In such a case,
any Fees or Interest charged will be credited back to your
Account. (New York Residents: You will not be required
to pay any Fee, including the Annual Fee, or any Interest
until after the date that you first sign a sales slip or
memorandum.) Except as provided above, to the extent
not prohibited by law the Annual Fee is non-refundable
unless, in the case of a renewal Annual Fee, you sent
us written notice of termination in accordance with (and
within the 30 day period specified in) our annual renewal
notice sent to you prior to your Billing Cycle in which the
renewal Annual Fee is billed. However, if we close your
Account for a reason other than at your request and other
than for your Default, as set forth in Section 11 above, you
will be entitled to a pro-rata refund of the portion of your
Annual Fee which corresponds to the remaining portion of
the annual period for which the Annual Fee was imposed.
14. Termination. You or we may close your Account or
terminate your privileges under this Agreement or cancel
or limit your privileges to make Purchases or obtain Cash
Advances at any time, with or without cause, subject to
applicable notice requirements. If you or we terminate
your Account, you promise that any amounts that
you owe us at the time of termination, plus any new
Purchases or Cash Advances, plus any Interest
Charges, other Finance Charges and other Fees and
charges that will continue to be imposed at the rates
and in the amounts specified in this Agreement, will
be repaid according to this Agreement. You agree
that you will not try to make any Purchases or obtain
Cash Advances after you have been notified that your
privileges to use your Account have been canceled. To
terminate your Account, you must give us written notice
of your intent to terminate your Account at the address
for inquiries shown on your Billing Statement. Your notice
of termination will become effective as soon as we can
reasonably act on it. If you or we close your Account for
any reason, you authorize us, to the extent not prohibited
by law, to apply all or any part of your funds in the Deposit
Account towards all amounts owed on the Account or
otherwise owed under this Agreement, as provided above
under “Security Interest”.
15. Notices. We will send Billing Statements and any
other notices to you at the address shown in our files. You
promise to inform us promptly in writing of any change
in your address or other contact information. Any written
notice from you to us regarding this Agreement or your
Account must be sent to us at First Progress Card, PO
Box 9053, Johnson City, TN 37615-9053or call us toll free
at 1-866-706-5543, or to such other address as we may
give you, and shall be effective only when received by us
at such address. In determining your last known address,
we can accept address corrections received from the U.S.
Postal Service.

16. Changes in Agreement Terms. We can change
any term of this Agreement, including the rate at which or
manner in which Interest Charges or other Finance
Charges or Fees are calculated, in our sole discretion,
upon such notice to you, if any, as is required by law.
Changes in Interest Charges or other Finance Charges
or Fees will apply to all new activity on your Account once
the change is effective, and may apply to your outstanding
balance when not prohibited by law.
17. MILITARY LENDING ACT: The Military Lending
Act (“MLA”) provides protections for certain members
of the Armed Forces and their dependents (“Covered
Borrowers”). The provisions of this section apply to
Covered Borrowers under the MLA. If you would like more
information about whether you are a Covered Borrower
and whether this section applies to you, please contact us
at 866-706-5543.
Statement of MAPR: Federal law provides important
protections to members of the Armed Forces and their
dependents relating to extensions of consumer credit. In
general, the cost of consumer credit to a member of the
Armed Forces and his or her dependent may not exceed
an Annual Percentage Rate of 36%. This rate must include,
as applicable to the credit transaction or account: (1) the
costs associated with credit insurance premiums; (2) fees
for ancillary products sold in connection with the credit
transaction; (3) any application fee charged (other than
certain application fees for specified credit transactions
or accounts); and (4) any participation fee charged (other
than certain participation fees for a credit card
account).
Oral Disclosures: In order to hear important MLA
disclosures and payment information, please call (888)
491-6612.
Covered Borrowers: If you are a Covered Borrower, as
defined under the MLA, 10 U.S.C. § 987, as amended
from time to time, (i) the provisions of the ARBITRATION
PROVISION below, (ii) any waiver of your right to legal
recourse under any state or federal law and (iii) any other
provision in this Agreement that is not enforceable against
you under the MLA, does not apply to you.
18. Arbitration
PLEASE READ THIS PROVISION OF THE AGREEMENT
CAREFULLY. UNLESS YOU EXERCISE YOUR RIGHT
TO OPT-OUT OF ARBITRATION IN THE MANNER
DESCRIBED BELOW, YOU AGREE THAT ANY DISPUTE
WILL BE RESOLVED BY BINDING ARBITRATION.
ARBITRATION REPLACES THE RIGHT TO GO TO
COURT, INCLUDING THE RIGHT TO HAVE A JURY
TRIAL, TO ENGAGE IN DISCOVERY (EXCEPT AS MAY
BE PROVIDED FOR IN THE ARBITRATION RULES),
AND TO PARTICIPATE AS A REPRESENTATIVE OR
MEMBER OF ANY CLASS OF CLAIMANTS OR IN ANY
CONSOLIDATED ARBITRATION PROCEEDING OR AS
A PRIVATE ATTORNEY GENERAL. OTHER RIGHTS
THAT YOU WOULD HAVE IF YOU WENT TO COURT
MAY ALSO BE UNAVAILABLE IN ARBITRATION.

6

Agreement to Arbitrate. You and we agree that any
Dispute (defined below) will be resolved by Arbitration.
This agreement to arbitrate is governed by the Federal
Arbitration Act, 9 U.S.C. § 1 et seq., and the substantive
law of the State of Georgia (without applying its choiceof-law rules).
What Arbitration Is. “Arbitration” is a means of having
an independent third party resolve a Dispute. A “Dispute”
is any claim or controversy of any kind between you and
us. The term Dispute is to be given its broadest possible
meaning and includes, without limitation, all claims or
demands (whether past, present, or future, including
events that occurred prior to the opening of this Account
and whether or not a credit card is issued), based on
any legal or equitable theory (contract, tort, or otherwise)
and regardless of the type of relief sought (i.e., money,
injunctive relief, or declaratory relief). A Dispute includes,
by way of example and without limitation, any claim based
upon a federal or state constitution, statute, ordinance,
regulation, or common law, and any issue concerning
the validity, enforceability, or scope of this arbitration
agreement.
Opt-Out of Arbitration. You may opt-out or reject
arbitration by sending a notice (“Rejection Notice”)
that we receive within forty-five (45) Business Days
after the Effective Date. Any Rejection Notice must be
signed by you and must include your name, address,
telephone number and last four digits of the Account
number.
Where to Send Notice to Opt-out of Arbitration. You
must mail the Rejection Notice by certified mail return
receipt requested or send it by messenger service (such
as Federal Express) to us at First Progress Card, PO
Box 9053, Johnson City, TN 37615-9053. In the event
of any dispute concerning whether you have provided
a Rejection Notice within the time permitted, you must
provide a signed receipt confirming that you sent it to us
in time. This is the only method you can use to reject this
arbitration provision.
How Arbitration Works. If a Dispute arises, the party
asserting the claim or demand must initiate arbitration,
provided you or we may first try to resolve the matter
informally or through customary business methods,
including collection activity. The party fling for arbitration
must choose either of the following arbitration firms
for initiating and pursuing arbitration: the American
Arbitration Association (“AAA”) or JAMS, The Resolution
Experts (“JAMS”) (collectively “Administrators”). If the
parties mutually agree, a private party, such as a retired
judge, may serve as the arbitrator. If you claim you have a
Dispute with us, but do not initiate for arbitration or select
an arbitrator, we may do so. You may obtain copies of the
current rules of each of the arbitration firms and forms and
instructions for initiating for arbitration by contacting them
as follows:

American Arbitration Association 335 Madison
Avenue, Floor 10 New York, NY 10017-4605
Website: www.adr.org
JAMS 1920 Main Street Suite 300 Irvine, CA
92614 Website: www.jamsadr.com
The policies and procedures of the selected arbitration
firm will apply provided such policies and procedures are
consistent with this arbitration agreement. To the extent
the arbitration firm’s rules or procedures are different than
the terms of this arbitration agreement, the terms of this
arbitration agreement will apply.
Waiver of Jury Trial and Class Action Waiver. Unless
you opt-out of arbitration, which you have the right
to do as described above, you are waiving your
right to a jury trial, to have a court decide your
Dispute, to participate in a class action lawsuit or
class arbitration, and to certain discovery and other
procedures that are available in a lawsuit. You and we
agree that the arbitrator has no authority to conduct
class-wide proceedings and is only authorized to
resolve the individual Disputes between you and us.
The validity, effect, and enforceability of this waiver
of class action lawsuit and class-wide arbitration, if
challenged, are to be determined solely by a court of
competent jurisdiction and not by the AAA, JAMS,
or the arbitrator. If such court refuses to enforce
the waiver of class-wide arbitration, the Dispute will
proceed in court. The arbitrator has the ability to
award all remedies available by statute, at law, or in
equity to the prevailing party including but not limited
to attorneys fees and costs.
Starting the Arbitration. Any party to a Dispute, including
related third parties, may send the other party written
notice by certified mail, return receipt requested, of their
intent to arbitrate and setting forth the subject of the
dispute along with the relief requested, even if a lawsuit
has been fled.
Selection of Arbitrator. Regardless of who demands
arbitration, you shall have the right to select either the
American Arbitration Association or JAMS. Their contact
information is above. However, the parties may agree
to select a local arbitrator who is an attorney, retired
judge, or arbitrator registered and in good standing
with an arbitration association and arbitrate pursuant
to such arbitrator’s rules. The party receiving notice
of arbitration will respond in writing by certified mail,
return receipt requested, within twenty (20) days. If you
demand arbitration, you must inform us in your demand
of the arbitration organization you have selected or
whether you desire to select a local arbitrator. If related
third parties or we demand arbitration, you must notify us
within twenty (20) days in writing by certified mail, return
receipt requested, of your decision to select one of the
Administrators or your desire to select a local arbitrator. If
you fail to notify us, then we have the right to select one of
the Administrators. In the event that both of the Arbitration
organizations mentioned above will not appoint someone
7

to serve as an arbitrator for the Dispute because these
organizations no longer administer the type of Dispute or
otherwise, either party can petition a court of competent
jurisdiction to have the court appoint the arbitrator.
What Rules Apply to the Arbitration. The arbitrator
shall apply applicable substantive law consistent with
the Federal Arbitration Act, 9 U.S.C. §§ 1 et seq. (“FAA”),
applicable statutes of limitation, and shall honor claims of
privilege recognized at law. The parties to such Dispute
will be governed by the rules and procedures of the
Administrator selected applicable to consumer disputes
to the extent those rules and procedures do not contradict
the express terms of this Arbitration Provision, including
the limitations on the arbitrator in this Arbitration Provision.
You may obtain a copy of the rules and procedures by
contacting the arbitration organization listed above
Other Arbitration Rules. In addition to the parties’ rights
to obtain discovery pursuant to the applicable arbitration
rules, either you or us may submit a written request to
the arbitrator to expand the scope of discovery normally
allowed under the rules of the Administrator selected.
The arbitrator shall have discretion to grant or deny
such request. The arbitrator may decide, with or without
a hearing, any motion that is substantially similar to a
motion to dismiss for failure to state a claim or a motion
for summary judgment. In conducting the arbitration,
the arbitrator shall not apply any federal rules of civil
procedure or evidence.
Payment of Arbitration Fees. If you demand arbitration,
then at your request we will pay your portion of the
expenses associated with the arbitration, including the
fling, administrative, hearing and arbitrator’s fees but
not attorneys’ fees or costs (collectively the “Arbitration
Fees”). If related third parties or we demand arbitration,
then at your written request we will pay your portion of the
Arbitration Fees. Throughout the arbitration, each party
shall bear his or her own attorneys’ fees and expenses,
such as witness and expert witness fees provided that
we will pay your attorney’s fees and costs if the arbitrator
determines that under the law we are required to pay
them.
Location of Arbitration. The arbitration hearing will be
conducted in the county of your residence, within 30
miles from such county, or in such other place as shall be
ordered by the arbitrator.
Survival. This arbitration provision shall survive:
(1) termination or changes to this Agreement, the Account,
or the relationship between you and us concerning the
Account;
(2) the bankruptcy of any party; and
(3) any transfer, sale, or assignment of your Account, or
any amounts owed on your Account, to any other person
or entity.

Applicable Law and Review of Arbitrator’s Award.
The arbitrator shall apply applicable federal and Georgia
substantive law and the terms of this Agreement.
The arbitrator must apply the terms of this arbitration
agreement, including without limitation the waiver of
class-wide arbitration. The arbitrator shall make written
findings and the arbitrator’s award may be fled with
any court having jurisdiction. The arbitration award
shall be supported by substantial evidence and must be
consistent with this Agreement and with applicable law,
and if it is not, it may be set aside by a court. The parties
shall have, in addition to the grounds referred to in the
Federal Arbitration Act (“FAA”) for vacating, modifying,
or correcting an award, the right to judicial review of (a)
whether the findings of fact rendered by the arbitrator are
supported by substantial evidence, and (b) whether the
conclusions of law are erroneous under the substantive
law of the State of Georgia and applicable federal law.
Judgment confirming an award in such a proceeding
may be entered only if a court determines that the award
is supported by substantial evidence and is not based
on legal error under the substantive law of the State of
Georgia and applicable federal law.
19. Law that Applies to this Agreement. This Agreement
is entered into between you and us in Georgia, and our
decisions regarding the extension of credit to you are
made in Georgia. Federal and Georgia law (other than its
internal conflict of laws rules) will apply to any controversy,
claim, or Dispute arising from or relating in any way to
the subject matter of this Agreement and your Account,
including, without limitation, statutory, equitable, and tort
claims.
20. Binding Effect. This Agreement is binding upon and
enforceable against your heirs, legal representatives, and
successors.
21. Severability. If any provision of this Agreement,
including any portion of the arbitration agreement set
forth above in Section 17, is determined to be invalid or
unenforceable under any rule, law, or regulation, including
the Military Lending Act, the validity or enforceability
of any other provision of this Agreement shall not be
affected, and in lieu of such invalid or unenforceable
provision there shall be added automatically, as part of
this Agreement, a provision as similar in terms as may
be valid and enforceable, if possible. Notwithstanding
the foregoing, if a class action litigation or a class-wide
arbitration is permitted for any reason, either party may
require that the entire Dispute, as defined in Section 17
above, be heard by a judge, sitting without a jury, under
applicable court rules and procedures.
22. Foreign Currency Conversion Rate. If you effect a
transaction at a merchant that settles in a currency other
than U.S. dollars, MasterCard will convert the charge into
a U.S. dollar amount. MasterCard’s currency conversion
procedure includes use of either a government-mandated
exchange rate, or a wholesale exchange rate selected by
MasterCard, and the government-mandated exchange
8

rate or wholesale exchange rate MasterCard uses for a
particular transaction is the rate MasterCard selects for
the applicable currency on the day the transaction is
processed, which may differ from that applicable to the
date the transaction occurred or when it is posted to the
cardholder’s Account.
23. Credit Reporting Information. Because you have
requested a Card, we are entitled under applicable law,
including the Fair Credit ReportingAct, to obtain information
about you from a credit reporting agency. We may also
verify your credit references and other information that
you provide to us. We may obtain updated or additional
information about you, including consumer reports, from
time to time for any legitimate purpose including, but not
limited to, the extension of credit to you or the review
or collection of your Account. We will report information
about your account to credit bureaus. Late payments,
missed payments, or other defaults in your account may
be reflected in your credit report. If you believe that our
report is inaccurate or incomplete, please write us at the
following address: First Progress Card, P.O. Box 9053,
Johnson City, TN 37615-9053.
24. Call Monitoring/Recording. You authorize us and
any third party servicing your Account to listen to and
record telephone calls between you and us and telephone
calls between you and any third party service provider, in
order to evaluate the quality of service or for any other
lawful purpose.
				
25. Servicing Account. You authorize us or any of our
agents to contact you at any of the telephone numbers you
have listed on your credit application or any other number
you provide to us, including a ported landline, regarding
payments due or other information about your Account.
You authorize us to leave a message with a person or on
a voice mail service that answers the numbers you have
provided to us. You also authorize us to send U.S. postal
mail or email to the addresses you provide to us on your
credit application or otherwise. We can also contact other
persons you have listed on your credit application to find
out information about you and how to contact you in the
event we are unsuccessful in contacting you as described
above. If you have agreed to accept text messages from
us on your mobile, cellular telephone or similar devices,
we can contact you using text messages. You authorize
us to call using an automated telephone dialing system
and/or prerecorded messages. You also authorize us to
send you emails to any address where we can reasonably
believe we can contact you. You may be charged by your
wireless provider to receive text messages.
26. Other Services. You understand that from
time to time we may partner with third parties to offer
you additional features, services and enhancements,
including, but not limited to, credit protection, credit life,
disability or unemployment insurance, common carrier
travel insurance, credit card registration for lost or stolen
credit cards, emergency cash service, address change
service, and other travel related services. You understand

that we are not liable for these features, services, and
enhancements, and they are the sole responsibility of
the third parties. You agree to hold us harmless from
any claims, actions, or damages resulting from your use
of any of these features, enhancements, or services,
when permitted by applicable law. If you elect any of the
foregoing, you authorize us to charge the premium or fee
to the Account as a Purchase.
27. Sale/Assignment/Transfer. We may sell, assign, or
transfer all or any portion of your Account or any balances
due under your Account without prior notice to you. You
may not sell, assign, or transfer your Card or your Account
or any of your obligations under this Agreement.
28. Entire Agreement. This Agreement, including the
accompanying Summary of Terms, together with your
Application, constitutes the final and complete expression
of the credit agreement between you and us relating to your
Account and supersedes and may not be contradicted by
evidence of any prior, contemporaneous, or subsequent
oral credit agreement between you and us relating to your
Account.
29. USA Patriot Act. To help the government fight the
funding of terrorism and money laundering activity,
Federal law requires all financial institutions to obtain,
verify and record information that identifies each person
who opens an Account.
What this means to you: When you open an Account
we will ask you for your name, address, social security
number, date of birth and other information that will allow
us to identify you.
30. How to Contact Us. For general inquiries we can
be reached in writing at: First Progress Card, PO Box
9053, Johnson City, TN 37615-9053. Or, you can call
our Customer Service Department at 1-866-706-5543.
Payments should be mailed to the address listed on your
Billing Statement.
Your Billing Rights: Keep this Document for Future
Use
This notice tells you about your rights and our
responsibilities under the Fair Credit Billing Act.
What To Do If You Find a Mistake on Your Statement
If you think there is an error on your statement, write to
us at:
Synovus Bank
P.O. Box 9053, Johnson City, TN 37615-9053
In your letter, give us the following information:
• Account information: Your name and the last four digits
of the account number.
• Dollar amount: The dollar amount of the suspected error.
• Description of problem: If you think there is an error on
your bill, describe what you believe is wrong and why you
believe it is a mistake.
9

You must contact us:
• Within 60 days after the error appeared on your
statement.
• At least 3 business days before an automated payment
is scheduled, if you want to stop payment on the amount
you think is wrong.
You must notify us of any potential errors in writing. You
may call us, but if you do we are not required to investigate
any potential errors and you may have to pay the amount
in question.
What Will Happen After We Receive Your Letter
When we receive your letter, we must do two things:
1.
Within 30 days of receiving your letter, we must tell
you that we received your letter. We will also tell you if we
have already corrected the error.
2. Within 90 days of receiving your letter, we must either
correct the error or explain to you why we believe the bill
is correct.
While we investigate whether or not there has been an
error:
• We cannot try to collect the amount in question, or report
you as delinquent on that amount.
• The charge in question may remain on your statement,
and we may continue to charge you interest on that
amount.
• While you do not have to pay the amount in question,
you are responsible for the remainder of your balance.
• We can apply any unpaid amount against your credit
limit.
After we finish our investigation, one of two things will
happen:
• If we made a mistake: You will not have to pay the
amount in question or any interest or other fees related to
that amount.
• If we do not believe there was a mistake: You will have to
pay the amount in question, along with applicable interest
and fees. We will send you a statement of the amount you
owe and the date payment is due. We may then report
you as delinquent if you do not pay the amount we think
you owe.
If you receive our explanation but still believe your bill
is wrong, you must write to us within 10 days telling
us that you still refuse to pay. If you do so, we cannot
report you as delinquent without also reporting that you
are questioning your bill. We must tell you the name of
anyone to whom we reported you as delinquent, and we
must let those organizations know when the matter has
been settled between us.
If we do not follow all of the rules above, you do not have
to pay the first $50 of the amount you question even if
your bill is correct.

Your Rights If You Are Dissatisfied With Your Credit
Card Purchases
If you are dissatisfied with the goods or services that you
have purchased with your credit card, and you have tried
in good faith to correct the problem with the merchant,
you may have the right not to pay the remaining amount
due on the purchase.
To use this right, all of the following must be true:
1. The purchase must have been made in your home
state or within 100 miles of your current mailing address,
and the purchase price must have been more than $50.
(Note: Neither of these are necessary if your purchase
was based on an advertisement we mailed to you, or if
we own the company that sold you the goods or services.)
2. You must have used your credit card for the purchase.
Purchases made with cash advances from an ATM or with
a check that accesses your credit card account do not
qualify.
3. You must not yet have fully paid for the purchase. If all
of the criteria above are met and you are still
dissatisfied with the purchase, contact us in writing at:
Synovus Bank
PO Box 9053, Johnson City, TN 37615-9053
While we investigate, the same rules apply to the
disputed amount as discussed above. After we finish our
investigation, we will tell you our decision. At that point, if
we think you owe an amount and you do not pay, we may
report you as delinquent.
STATE NOTICES
SERVICE CHARGES NOT IN EXCESS OF THOSE
PERMITTED BY LAW WILL BE CHARGED ON YOUR
OUTSTANDING BALANCE FOR EACH BILLING CYCLE.
YOU MUST MAINTAIN A DEPOSIT ACCOUNT AS
SECURITY FOR THIS CREDIT CARD ACCOUNT, AND
SHALL GRANT US A SECURITY INTEREST IN THIS
DEPOSIT ACCOUNT.
CALIFORNIA RESIDENTS: A married applicant may
apply for a separate account.
CALIFORNIA AND NEVADA RESIDENTS: Pursuant
to this Agreement, interest is compounded on unpaid
amounts.
MARYLAND RESIDENTS: Finance Charges will be
imposed in amounts or at rates not in excess of those
permitted by law. You have the right under Section 12-510
of the Commercial Law Code to receive an answer to a
written inquiry concerning the status of your account.
NEW JERSEY RESIDENTS: Because certain provisions
of this Agreement are subject to applicable law, they
may be void, unenforceable or inapplicable in some
jurisdictions. None of these provisions, except for clause
(g) of Section 11, however, is void, unenforceable or
inapplicable in New Jersey.

10

OHIO RESIDENTS: The Ohio laws against discrimination
require that all creditors make credit equally available
to all credit worthy customers, and that credit reporting
agencies maintain separate histories on each individual
upon request. The Ohio civil rights commission administers
compliance with this law.
NOTICE TO THE BUYER
1. DO NOT SIGN THIS CREDIT AGREEMENT BEFORE
YOU READ IT OR IF IT CONTAINS ANY BLANK
SPACES.
2. YOU ARE ENTITLED TO A COMPLETELY FILLED
IN COPY OF THIS CREDIT AGREEMENT.
3. YOU MAY AT ANY TIME PAY MORE THAN THE
MINIMUM PAYMENT, OR YOUR ENTIRE BALANCE
IN FULL WITHOUT INCURRING ANY ADDITIONAL
CHARGE FOR PREPAYMENT.
NEW YORK RESIDENTS: RETAIL INSTALMENT
CREDIT AGREEMENT CARDHOLDER: Your signature
(including any electronic or digital signature) on any
Application or on any sales slip or other evidence
of indebtedness on your Account or any action that
you may take to begin a transaction represents your
signature on this Agreement.
DEPOSIT AGREEMENT
The Terms and Conditions and Truth in Savings Disclosure
which follow below contain the rules which control your
“Deposit” in the “Deposit Account”, as those terms are
defined in the MasterCard® First Progress Cardholder
Agreement (“Cardholder Agreement”) applicable to your
First Progress secured credit card account (the “Secured
Credit Card Account”), and together with any other
documents we give you pertaining to your Deposit, are
a contract that governs your Deposit with us (“Deposit
Agreement”). Please read this carefully. If you sign the
Deposit Agreement or open or continue to have your
Deposit or Secured Credit Card Account with us, you
agree to these rules. If you have any questions, please
call us.
TERMS AND CONDITIONS
Unless it would be inconsistent to do so, words and
phrases used in this Deposit Agreement should be
construed so that the singular includes the plural and the
plural includes the singular. In this Deposit Agreement
“we”, “us” and “our” refer to Synovus Bank, Columbus,
Georgia.
Your Deposit will be held in a comingled Deposit Account
with us that is FDIC insured to the extent permitted by law.
These terms and conditions that apply to your Deposit
and the Deposit Account are in addition to the terms and
conditions set forth in your Cardholder Agreement.
This Deposit Agreement is subject to applicable federal
laws and the laws of the State of Georgia (except to the
extent that this Deposit Agreement can and does vary
such rules or laws). If any provision of this document is
found to be unenforceable according to its terms, all
remaining provisions will continue in full force and effect.

INTEREST ON DEPOSIT – Interest will not be paid on
your Deposit.
DEPOSITS – We will give only provisional credit until
collection is final for any items, other than cash, we accept
for deposit (including items drawn “on us”). Deposits must
be from a U.S. funding source payable in U.S. Dollars.
We are not responsible for transactions by mail or outside
depository until we actually record them. We will treat
and record all transactions received after our “daily cutoff
time” on a Business Day we are open, or received on a
day we are not open for business, as if initiated on the
next following Business Day that we are open.
WITHDRAWALS – You may not withdraw or transfer funds
from the Deposit Account other than by our refund to you
of any amounts of your Deposit remaining in the Deposit
Account after your Secured Credit Card Account is closed
and all amounts you owe on that Account or otherwise
owe under the Cardholder Agreement are paid in full and
the time period restrictions provided for in the “Security
Interest” section of the Cardholder Agreement have
been satisfied. You are not permitted to initiate electronic
transfers to or from the Deposit Account. Each obligor (if
there are more than one) (until we receive written notice
to the contrary) authorizes each other obligor signing
the Cardholder Agreement to endorse any item payable
to an obligor or obligor’s order for deposit to the Deposit
Account or any other transaction with us.
AMENDMENTS AND TERMINATION – We may change
any term of this Deposit Agreement at any time by giving
you reasonable notice in writing or by any other method
permitted by law. We may also return your Deposit at any
time upon reasonable notice to you and tender of the
Deposit balance personally or by mail. Notice from us to
any one of you is notice to all of you.
STATEMENTS – We will not send you statements for the
Deposit in the Deposit Account.
ACCOUNT TRANSFER – This account may not be
transferred without our prior written consent.
TRUTH IN SAVINGS DISCLOSURE
Minimum Balance Requirements
To open the account. You must deposit at least $200.00
to open this account.

11

Transaction Limitations
After your initial deposit, subsequent deposits into your
Deposit Account may be made only (i) with our express
approval and (ii) by paper check mailed to us at the
address we specify at the time of approval. A deposit
will not be reflected in your Deposit Account until we
are assured that the deposit has not been dishonored.
This payment hold may take up to ten (10) days. You
may not withdraw or transfer funds from the Deposit
Account other than by our refund to you of any amounts
of your Deposit remaining in the Deposit Account, after
your Secured Credit Card Account is closed and all
amounts you owe on that Account or otherwise owe
under the Cardholder Agreement are paid in full and
the time period restrictions provided for in the “Security
Interest” section of the Cardholder Agreement have
been satisfied. You are not permitted to initiate electronic
transfers to or from the Deposit Account.

12

